                                              OFFICE OF THE CHIEF
                                              FINANCIAL OFFICER



Office of Inspector General—Office of Audit




                                              DEPARTMENT OF LABOR (DOL)
                                              NEW CORE FINANCIAL MANAGEMENT SYSTEM
                                              (NCFMS)
                                              PRE-IMPLEMENTATION PERFORMANCE AUDIT
                                              REPORT

                                              This audit was performed by KPMG LLP (KPMG), an Independent
                                              Public Accounting Firm, under contract to the U.S. Department of
                                              Labor, Office of Inspector General, and by acceptance, it becomes
                                              a report of the Office of Inspector General.




                                                             Assistant Inspector General for Audit




                                                                            Date Issued:       January 13, 2010
                                                                         Report Number:        22-10-014-13-001
                                         Prepared by KPMG LLP, an Independent Public Accounting Firm
                                           for the U. S. Department of Labor – Office of Inspector General



Table of Contents
Performance Auditors’ Report ..................................................................................... 5

Results In Brief .............................................................................................................. 7

Results and Recommendation ................................................................................... 10

Objective 1 – Was the OCFO’s user acceptance testing designed and executed
in accordance with Federal, DOL, and system implementation industry
standards?................................................................................................................... 10

Objective 2 – Was the OCFO’s batch interface testing designed and executed
in accordance with Federal, DOL, and system implementation industry
standards?................................................................................................................... 20

Objective 3 – Was the OCFO’s integration testing designed and executed in
accordance with Federal, DOL, and system implementation industry
standards?................................................................................................................... 21

Objective 4 – Was the OCFO’s mock data conversion testing designed and
executed in accordance with Federal, DOL, and system implementation
industry standards?.................................................................................................... 25

Updates to Alert Memorandums ................................................................................ 29

Appendices.................................................................................................................. 33

Appendix A – Background ......................................................................................... 35

Appendix B – Objectives, Scope, Methodology, and Criteria ................................. 37

Appendix C – Management Response ...................................................................... 43

Appendix D – Auditor Reponse ................................................................................. 51

Appendix E – Acronyms and Abbreviations............................................................. 61




                                                                              New Core Financial Management System
                                                               3                        Report No. 22-10-014-13-001
   Prepared by KPMG LLP, an Independent Public Accounting Firm
     for the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                              New Core Financial Management System
                   4                    Report No. 22-10-014-13-001
                           KPMG LLP                                                      Telephone 202 533 3000
                           2001 M. Street, NW                                            Fax       202 533 8500
                           Washington, DC 20036                                          Internet  www.us.kpmg.com


January 13, 2010

Mr. Elliot P. Lewis, Assistant Inspector General for Audit
Ms. Lisa Fiely, Acting Chief Financial Officer
US Department of Labor
200 Constitution Avenue, N.W
Washington, D.C. 20210
Performance Auditors’ Report
The United States (U.S.) Department of Labor (DOL) plans to migrate from its current
core financial system, Department of Labor Accounting and Related Systems (DOLAR$),
to the New Core Financial Management System (NCFMS). The Office of Chief Financial
Officer (OCFO) is responsible for the migration of the DOLAR$ to the NCFMS. The
migration of these systems is being accomplished using the methodology from DOL’s
System Development Life Cycle Management Manual (SDLCMM) and is scheduled to
take place January 14, 2010.

The Office of Inspector General (OIG) contracted with us to conduct a pre-
implementation performance audit of DOL’s NCFMS prior to deployment. From
November 19, 2009, to December 17, 2009, we performed test work related to the
following four audit objectives:

  1) Was the OCFO’s user acceptance testing designed and executed in accordance
     with Federal, DOL, and system implementation industry standards?
  2) Was the OCFO’s batch interface testing designed and executed in accordance with
     Federal, DOL, and system implementation industry standards?
  3) Was the OCFO’s integration testing designed and executed in accordance with
     Federal, DOL, and system implementation industry standards?
  4) Was the OCFO’s mock data conversion testing designed and executed in
     accordance with Federal, DOL, and system implementation industry standards?
We compared the system migration policies, procedures, and controls the OCFO had in
place through December 17, 2009, to industry standards, such as the Institute of
Electrical and Electronics Engineers (IEEE) standards, and Federal and DOL standards.

We have identified 11 implementation risks related to the design and execution of user
acceptance testing, batch interface testing, real-time interface testing and mock data
conversion. These implementation risks were identified as a result of the work
performed related to the four objectives listed above and we have summarized them in
this report. We provided the condition, cause, criteria, and effect for each identified risk
to assist in the timely and successful implementation of NCFMS.

In addition, as required by the U.S. Government Accountability Office generally accepted
government auditing standards (GAGAS), we followed up on the prior two Alert



                                                                 5
                           KPMG LLP, a U.S. limited liability partnership, is the U.S.
                           member firm of KPMG International, a Swiss cooperative.
Memorandums that were issued during our initial performance audit dated August 21,
2009, and September 3, 2009.

The OIG had previously contracted with us to perform a pre-implementation performance
audit when the NCFMS deployment was originally scheduled for October 14, 2009.
From May 19, 2009, through September 23, 2009, we performed an initial pre-
implementation performance audit in the following areas: (1) training, (2) cut-over
process, (3) migration of DOLAR$, (4) interface functionality, (5) the certification and
accreditation (C&A) of the production environment, (6) change control, (7) segregation of
duties, and (8) U.S. Standard General Ledger (USSGL) compliance. Based upon our
fieldwork and in response to the risks that we identified, the OIG issued two Alert
Memorandums to the OCFO, which were related to the following:

       1. Training had not been appropriately completed by all pertinent DOLAR$ users.
       2. Cut-over reconciliation procedures had not been appropriately documented.

As of September 23, 2009, the OCFO decided to delay the implementation of NCFMS
until January 2010.

We conducted this performance audit in accordance with GAGAS. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
results and recommendation based on our audit objectives.

This performance audit did not constitute an audit of financial statements in accordance
with GAGAS. We were not engaged to, and did not, render an opinion on DOL’s internal
controls over financial reporting or over financial management systems (for purposes of
the Office of Management and Budget’s (OMB) Circular No. A-127, Financial
Management Systems, as revised). Our audit fieldwork ended on December 17, 2009;
we caution that projecting the results of our evaluation to future periods is subject to the
risks that controls may become inadequate because of changes in conditions or because
compliance with controls may deteriorate.

It is the responsibility of DOL management to make risk management decisions
regarding the identified implementation risks and their realizable/potentially realizable
impacts on controls and the financial statements. Conditions may exist that mitigate the
risk of an identified finding that may not have been identified during our testing. Policy,
practices, configurations, settings, architecture, auditing, monitoring, and detective
controls may all work to mitigate the risk of an identified weakness. These controls
should be identified and considered in the DOL’s risk management decision-making
process.




                                             6
                              Prepared by KPMG LLP, an Independent Public Accounting Firm
                                for the U. S. Department of Labor – Office of Inspector General


Results In Brief

The New Core Financial Management System (NCFMS) was originally planned to be
implemented on October 14, 2009. However, as of September 23, 2009, the Office of
the Chief Financial Officer (OCFO) decided to delay the implementation of NCFMS until
January 2010. The OCFO took corrective actions to address previously identified risks
since the implementation delay of September 23, 2009. Specifically, the OCFO
increased opportunities in the training of the Department of Labor (DOL) employees,
DOL employees attended these additional training opportunities, and the OCFO refined
the NCFMS Cut-Over Procedures from Department of Labor Accounting and Related
Systems (DOLAR$).

Provided in the table below are the results of our follow-up activities.

Objective Objective Area          Status of Previously Issued Alert Memorandums as
                                                    of December 17, 2009
1            Training           We noted that the OCFO continued to increase the
                                availability of training throughout the remaining months
                                leading up to the implementation and that DOL
                                employees took the additional trainings as offered. In
                                addition, the OCFO involved Subject Matter Experts
                                (SMEs) and invited representatives from each agency
                                and business process area to the trainings. Additionally,
                                we confirmed through corroborative inquiry that the
                                training environment was moved to the DOL
                                Headquarters in Washington, D.C. to facilitate attendance
                                at the training classes.
2            Cut-Over           The OCFO updated its cutover procedures. Per the
             Process            updated procedures, an NCFMS Cut-Over Transactions
                                Workbook (NCTW) will be used to manually track funds
                                status (funding and spending) in fiscal year (FY) 2010
                                during the cutover period of NCFMS, and numerous
                                reconciliations will occur during the cutover period.

Based upon our audit fieldwork since the resumption of the implementation, we
identified that the OCFO’s user acceptance, batch interface, integration, and mock
migration testing were not designed and executed in accordance with Federal, DOL and
system implementation standards. Specifically we identified, in the table below,
implementation risks as of December 17, 2009 that were not properly addressed by the
OCFO.

Objective Objective Area   Implementation Risks as of December 17, 2009
1         User           • Comprehensive user acceptance testing was not
          Acceptance       conducted on the NCFMS version planned for

                                                         New Core Financial Management System
                                              7                    Report No. 22-10-014-13-001
                             Prepared by KPMG LLP, an Independent Public Accounting Firm
                               for the U. S. Department of Labor – Office of Inspector General


Objective Objective Area            Implementation Risks as of December 17, 2009
          Testing                  implementation. (Implementation Risk 1)
                               •   DOL users were not involved in all phases of user
                                   acceptance testing. (Implementation Risk 2)
                               •   Evidence could not be obtained to determine if all
                                   business process requirements under user
                                   acceptance testing were appropriately tested.
                                   (Implementation Risk 3)
                               •   Reconciliation of standard financial reporting has not
                                   yet been performed. (Implementation Risk 4)
2            Interface         •   A completeness and accuracy validation was not
             Testing               performed between the batch interfaces and NCFMS.
                                   (Implementation Risk 5)
3            Integration       •   Not all real-time interface requirements were
             Testing               appropriately tested during the user acceptance test
                                   phase. (Implementation Risk 6)
                               •   Evidence could not be obtained to determine if failed
                                   integration test cases were corrected and re-tested.
                                   (Implementation Risk 7)
                               •   A completeness and accuracy validation was not
                                   performed between the real-time interfaces and
                                   NCFMS. (Implementation Risk 8)
4            Mock Data         •   Evidence to determine if a source system data extract
             Conversion            was validated for completeness could not be obtained.
                                   (Implementation Risk 9)
                               •   Required throughput rates have not yet been reached.
                                   (Implementation Risk 10)
                               •   Mock IV data conversion test results do not include
                                   evidence that all planned tests to verify the accuracy
                                   of data migration were performed. (Implementation
                                   Risk 11)

The implementation risks identified above present risks to the future integrity and
availability of the DOL financial data and were caused by the following circumstances:

•   Numerous software changes after user acceptance testing was completed and the
    timing of data interface and integration testing of the system was being conducted
    near the date of the decision to implement were symptomatic of a system
    development process that was not properly planned from start to finish;

•   The DOL OCFO’s oversight was not extensive enough to ensure proper acceptance
    of the testing and mock data conversion results; and

•   Documentation associated with user acceptance, data interface, integration and
    mock data conversion testing was not historical and verifiable in a manner that


                                                        New Core Financial Management System
                                             8                    Report No. 22-10-014-13-001
                            Prepared by KPMG LLP, an Independent Public Accounting Firm
                              for the U. S. Department of Labor – Office of Inspector General

   supports the ability to verify the completeness and accuracy of test results and
   related documentation provided by the OCFO.

We recommend that the OCFO take into consideration the above risks when making its
decision to implement the NCFMS.

MANAGEMENT RESPONSE

The OCFO responded to the draft report and stated that they followed the report’s
recommendation and considered in detail the 11 results and discussed the results in
detail during the OCFO Change Control Board meeting in consideration of the NCFMS
readiness to go forward. The entire OCFO written response to this draft report is
included in Appendix C.

AUDITOR RESPONSE

We reviewed Management’s Response and updated sections of our report as
appropriate. We analyzed management’s response to the draft report and found
nothing in their response that changed our conclusions regarding the implementation
risks identified. Please refer to Appendix D for our analysis of Management’s Response




                                                       New Core Financial Management System
                                            9                    Report No. 22-10-014-13-001
                              Prepared by KPMG LLP, an Independent Public Accounting Firm
                                for the U. S. Department of Labor – Office of Inspector General


Results and Recommendation

We performed procedures to assess whether the U.S. Department of Labor (DOL)
Office of the Chief Financial Officer (OCFO) had controls in place to mitigate risks that
the implementation of New Core Financial Management System (NCFMS) poses to the
integrity, confidentiality, and availability of financial data. The results of our test work
and the procedures executed during our scope period are described below.

Objective 1 – Was the OCFO’s user acceptance testing designed and executed in
accordance with Federal, DOL, and system implementation industry standards?

The OCFO’s user acceptance testing was not designed and executed in accordance
with Federal, DOL and system implementation standards. Details which support our
determination are provided below.

The objective of user acceptance testing, a critical phase of a system implementation, is
to have users perform test cases and validate that the system functionality and
configurations meet the defined requirements needed for the financial system. As a
result of user acceptance testing, issues relating to software defects can be identified
and remediated prior to implementing the system in production. Without proper user
acceptance testing, the risk exists that the system is delivered containing software
defects, benefits identified in the business case are not realized, and agencies are
unable to achieve business needs.

During the user acceptance testing conducted for NCFMS, users tested all 11 business
process areas identified in the Gap Analysis Workshops as well as test cases pertaining
to real-time and batch interfaces. These 11 business areas include the following:
Acquire-to-Dispose, Record-to-Report (FIN), Record-to-Report (OPS), Request-to-
Procure, System User Administration, Reimbursable Management, General Ledger
Management, Procure-to-Pay, Build-to-Cost, Budget Execution, and Bill-to-Collect.

Implementation Risk 1 – Comprehensive user acceptance testing was not
conducted on the NCFMS version planned for implementation.

While management executed test cases for the 11 business process areas, the
comprehensive set of test cases related to the business process areas and real time
and batch interfaces was not always executed at each stage of testing. The table on
the next page provides details as to the various testing stages and extent of UAT
conducted during each phase.




                                                         New Core Financial Management System
                                             10                    Report No. 22-10-014-13-001
                                    Prepared by KPMG LLP, an Independent Public Accounting Firm
                                      for the U. S. Department of Labor – Office of Inspector General


     Period User    Extent of
     Acceptance       User
       Testing    Acceptance Additional Information Provided over Testing
      Occurred       Testing                             Phase
    Mid-August    Full set of    The extent of testing could not be determined due
    2009          test cases     to a lack of readily available historical information
                                 that could be verified for the August testing. We
                                 were informed that the same set of test cases
                                 were executed in August as September; however,
                                 the OCFO placed reliance on testing performed in
                                 September.
    Mid-September Full set of    Upon review of the September test cases, we
    2009          test cases     noted that the Procure-to-Pay, Working Capital
                                 Funds, and Job Corps Funding Allocation System
                                 (JFAS) interface test cases were not tested as of
                                 September 21, 2009, but appear in the overall
                                 testing results from December 2009.
    October 2009  Re-tested      As a result of the testing completed in September,
                  Failed Test    issues were identified that required software and
                  Cases          configuration changes to be made to the system.
                                 Once these changes were implemented, a more
                                 limited round of testing was completed in October
                                 by the OCFO to retest the failed test cases to
                                 ensure the system issues were remediated.
    December 23,  Partial set of We were informed that purchase card (PCard) and
    2009          test cases     cross-agency approvals are scheduled to have
                                 user acceptance test cases conducted in those
                                 areas.

In order to evaluate if changes occurred to the configuration baselines after the full set
of user acceptance test cases were executed, we obtained and inspected
documentation from the OCFO over the releases implemented in the user acceptance
testing environment. Upon inspection of the documentation, we noted that ten NCFMS
releases, which include both system changes and configuration changes for NCFMS
and its interfaces, have been implemented on the NCFMS DOL Customer Instance and
Shared Service Provider (SSP)1 appliance instance since the beginning of September.2
We were informed that DOL users were executing user acceptance test cases on
September 4, 2009, and continued through the third week of September. Therefore, it
appears that software changes were occurring during and subsequent to the user
acceptance testing phase in September 2009. Additionally, we noted that not all of the

1
 A Shared Service Provider (SSP) is an organization which provides, in a collaborative manner, a product and/or
service to another organization to enable increased effectiveness and efficiency of a function and/or process.
2
  The NCFMS system is comprised of two platforms, Financial Management Line of Business (FMLOB) SSP
Appliance and the DOL NCFMS Customer Appliance. When system changes to software or configuration baselines
are made, they can be implemented on either instance depending on the type of change. As a result, there are two
distinct sets of release numbers and associated SPRs as changes to each appliance are tracked separately.

                                                                    New Core Financial Management System
                                                       11                     Report No. 22-10-014-13-001
                            Prepared by KPMG LLP, an Independent Public Accounting Firm
                              for the U. S. Department of Labor – Office of Inspector General

changes implemented were made to correct test case failures related to user
acceptance test results.

The table below for the SSP Appliance and DOL instance, which make up NCFMS,
depict the number of software releases that were implemented to modify the software
and configuration baselines and include the specific number of changes associated with
each software release:

                                 SSP Appliance                      DOL Instance

                         Software Build        No. of        Software Build    Number of
    Software Build            No.            Software           Number          SPRs in
   Deployment Date                            Problem                           Software
                                           Reports (SPR)                         Build
                                            in Software
                                               Build
 December 12, 2009     SSP-R12-Build-41          35           DOL-Build-23          10
 November 19, 2009     SSP-R12-Build-40          16           DOL-Build-22          7
 November 6, 2009      SSP-R12-Build-39          27           DOL-Build-21          4
 October 23, 2009      SSP-R12-Build-38          11           DOL-Build-20          1
 October 14, 2009      SSP-R12-Build-37          20           DOL-Build-19          3
 October 2, 2009       SSP-R12-Build-36          13           DOL-Build-18          2
 September 25, 2009    SSP-R12-Build-35          11           DOL-Build-17          4
 September 20, 2009    SSP-R12-Build-34          11           DOL-Build-16          6
 September 17, 2009    SSP-R12-Build-33          11           DOL-Build-15          9
 September 10, 2009    SSP-R12-Build-32           2           DOL-Build-14          1
 September 8, 2009     SSP-R12-Build-31           1           DOL-Build-13          4
 September 1, 2009     SSP-R12-Build-30           2           DOL-Build-12          1

Upon review of the software release dates and phases of user acceptance testing, we
could not determine whether the phases of testing were completed in an environment
with a consistent configuration baseline for both NCFMS and its associated interfaces.
Specifically, since the beginning of user acceptance testing, we noted that ten software
releases have been implemented in the user acceptance test environment. These
changes occurred during and after testing and we could not determine the extent of the
changes and the potential impact to system functionality based upon the information
received. We also noted that three of the releases were implemented during the
months of November and December 2009, after the full set of user acceptance test
cases had been executed. Additionally, we noted that 263 additional test cases were
tested after September 21, 2009, in the areas of Request-to-Procure, Procure-to-Pay,
Working Capital Funds, JFAS, Trust Fund, National Finance Center (NFC), and E-
Grants. As management did not consider test cases classified as “others” as applicable
for execution, these test cases were not conducted.

Furthermore, we were informed that changes were made to the system to correct errors
identified in user acceptance testing so that re-testing could be performed. Due to the

                                                       New Core Financial Management System
                                           12                    Report No. 22-10-014-13-001
                             Prepared by KPMG LLP, an Independent Public Accounting Firm
                               for the U. S. Department of Labor – Office of Inspector General

numerous software releases and the differences in the overall number of test cases
conducted after the September testing, we cannot determine if a comprehensive set of
test cases were tested for system functionality and interdependency between business
processes with the same baseline configurations.

Management informed us that the majority of the changes implemented affecting
system functionality were made during the months of September and October 2009 in
order to remediate issues identified during the initial phases of user acceptance testing
so that they could be re-tested. Additionally, we were informed that when corrections to
the software or baseline could be made to correct failed test cases, the build was
implemented as soon as possible. Management indicated that this was done so that
retesting could occur during the user acceptance testing window in which the original
test was conducted. While we noted that management has prioritized and implemented
a subset of changes during and after user acceptance testing, we were unable to obtain
historical, verifiable support over the changes and timing of testing performed for each
change. As a result, we could not determine whether a comprehensive approach was
taken regarding user acceptance testing for all business processes and interfaces.
Furthermore, without having this information readily available we were unable to fully
assess the risk associated with the changes implemented or scheduled to be
implemented prior to the implementation date.

We noted that the DOL Systems Development Lifecycle Management Manual
(SDLCMM), version 2.2, section 6.3.2 states that acceptance testing is conducted in
accordance with the Acceptance Test Plan finalized earlier in this phase. Users
participate in acceptance testing to confirm that the developed system meets all user
requirements identified in the Planning Requirements and Definition Phase.
Acceptance testing is conducted in a simulated "real" user environment using simulated
or real target platforms and infrastructures. Acceptance test results are documented in
an Acceptance Test Report. Upon completion of acceptance testing, the approving
authority verifies that the test results have been reviewed and that testing was
successfully completed.

We noted that the Institute of Electrical and Electronics Engineers (IEEE) Standard
(Std) 1012-1998, Software Verification and Validation, Test Certification Section states
that test results should be certified by verifying that the tests were conducted using
baseline requirements, a configuration control process, and repeatable tests, and by
witnessing the tests. Certification may be accomplished at a software configuration item
level or at a system level.

Additionally, IEEE Std 1008-1987, Software Unit Testing, Appendix A8, User
Implementation and User Guidelines: User Involvement states that it can be very
effective to involve those users in determining the requirements-based elements to be
included in the testing. Asking users about their use of the software may bring to light
valuable information to be considered during test planning.



                                                        New Core Financial Management System
                                            13                    Report No. 22-10-014-13-001
                             Prepared by KPMG LLP, an Independent Public Accounting Firm
                               for the U. S. Department of Labor – Office of Inspector General

We noted that there was not an adequate amount of management oversight pertaining
to the implementation of DOL system changes as they relate to user acceptance
testing. Specifically, the DOL OCFO did not maintain an accurate and complete listing
of changes that had been implemented in the production environment and when they
had been implemented. Additionally, changes were not reviewed and analyzed to
determine if the modifications to the system could impact user functionality. As a result,
user acceptance testing was not formally scheduled with DOL users for some smaller
functionality changes that were to be subsequently being made.

In order to obtain the listing of system and configuration changes, documentation from
OCFO had to be obtained to determine the timeframe in which the build
implementations occurred. Management further informed us that currently the following
types of changes are being developed and implemented for production prior to January
15, 2010:

•   Performance improvements (these changes were improvements based upon results
    obtained through load testing)
•   Data migration changes to address errors identified in the data migration software
•   PCard Module changes
•   Interfaces changes
•   Functionality changes

Additionally, management informed us that performance improvements noted in the
change listings were based on the results of the second load testing performed in the
production environment. Since this second round of testing was performed after user
acceptance testing during the connectivity testing, changes to the system were being
implemented at the time of our report preparation.

Management also indicated that during the initial phases of development and testing for
NCFMS, the PCard Module functionality was not originally scheduled to be
implemented. Due to the system implementation delay, DOL management indicated
that the NCFMS contractor now had time to develop and complete the PCard module
software for the production rollout in January 2010. Therefore, the development of the
PCard Module occurred after the initial user acceptance testing was completed in
October, and as a result, the associated test cases for the PCard Module functionality
were never executed during the initial user acceptance testing. DOL management
indicated that they plan to schedule the testing in late December 2009.

Subsequent to the end of fieldwork, we received Management’s Response to the draft
report (see Appendix C), which indicated that that testing for the PCard Module was
presently underway.

Upon further discussion regarding the December build, we were informed by the OCFO
that a minimal number of SPR changes in the build pertain to functionality issues
including interfaces that would require more user acceptance testing. Additionally, the
OCFO noted that more user acceptance testing will be conducted over cross-agency

                                                        New Core Financial Management System
                                            14                    Report No. 22-10-014-13-001
                             Prepared by KPMG LLP, an Independent Public Accounting Firm
                               for the U. S. Department of Labor – Office of Inspector General

approvals and the PCard Module prior to the implementation of the system. However,
management would have to do some further research to determine which other
changes may impact functionality and may require user acceptance testing.

Due to the NCFMS production environment not containing the same software changes
and configuration settings as the environment in which user acceptance testing was
completed, DOL management is unable to fully rely upon the results obtained during
testing. The functionality of the system and the successful results of test cases will be
reproducible when the set of baselines for both software and configuration settings are
consistent between the testing and production environment instances. However, when
these instances are not identical, functionality that was tested during the initial phases
of user acceptance testing may not reflect the functionality that is present in production.
As a result, errors may occur in the NCFMS software that limits the system’s ability to
process financial data properly and meet DOL’s financial reporting requirements.

Without fully testing the PCard Module functionality in the system, DOL management
does not have assurance that the system functionality meets the defined business
needs and user expectations. Additionally, untested portions of the system could
deliver software defects that may potentially limit DOL’s ability to use the PCard Module
to execute the necessary business functions.

Implementation Risk 2 – DOL users were not involved in all phases of user
acceptance testing.

Management provided user acceptance test cases and the results of testing performed
related to the DOL business processes, interface, and integration testing for the
NCFMS. Management also provided evidence of DOL management review and
approval of these test cases and test results. However, upon review of the
documentation, we were unable to determine, or obtain additional evidence, that DOL
users performed user acceptance testing and the timeframe in which it was conducted
by DOL.

Upon inquiry, OCFO management stated that there was a lack of participation from
DOL users in the August and September phases of testing. We obtained and inspected
documentation noting the DOL users who participated in the September testing.
However, the listing was not comprehensive, and management informed us that
detailed documentation over the test cases performed was not obtained from the users.
As a result, the performance of user acceptance testing was supplemented by the
NCFMS support contractor’s testers.

After the completion of the September testing, software builds were implemented to fix
issues identified during user acceptance testing. Once these changes were
implemented, management informed us that the NCFMS support contractor’s testers re-
performed the user acceptance test cases that had previously failed to ensure that the
functionality was working appropriately.


                                                        New Core Financial Management System
                                            15                    Report No. 22-10-014-13-001
                             Prepared by KPMG LLP, an Independent Public Accounting Firm
                               for the U. S. Department of Labor – Office of Inspector General

Additionally, management informed us that any changes made to the system since the
October timeframe were tested through the NCFMS contractor’s system life cycle
development process. However, no formal user acceptance testing was conducted to
test functionality with DOL users. Subsequent to the end of fieldwork, we received
Management’s Response to the draft report (see Appendix C), which indicated that that
testing for the PCard Module is presently underway.

We noted that the DOL SDLCMM, version 2.2, section 1.6.3, states that active user
participation is essential at all levels in the definition, design, and development of an IT
system. Users are responsible for initiating and expeditiously resolving issues relating
to both system development efforts and identification and documentation of
requirements. Specifically, the user objectives should (1) provide a quick and
consistent review of the requirements; (2) provide statistical information relative to the
work processes; (3) develop performance standards; (4) review and refine the functional
requirements and their documentation; (5) approve and prioritize requirements; and (6)
perform user acceptance testing.

Additionally, DOL SDLCMM, version 2.2, section 6.1 states that during the Development
and Test Phase, executable software is developed from detailed design specifications.
The system is validated through a sequence of unit, integration, system, and
acceptance test activities. The objective is to ensure the system functions as expected
and user requirements are satisfied. This phase requires strong user participation in
order to verify that all requirements have been thoroughly tested and meet all business
needs.

Furthermore, we noted that the IEEE Std 1008-1987, Software Unit Testing, Appendix
A8, User Implementation and User Guidelines: User Involvement, states that it can be
very effective to involve those users in determining the requirements-based elements to
be included in the testing. Asking users about their use of the software may bring to
light valuable information to be considered during test planning.

OCFO management indicated that they made the opportunity available for end users to
participate in the user acceptance testing. However, an insufficient number of DOL
system users participated in the user acceptance testing to complete testing over all of
the required test cases. As result, the remaining tests to be performed were completed
by NCFMS contractor employees and not by DOL users. Additionally, the OCFO
informed us that documentation over the number of test cases performed by DOL users
and those performed by NCFMS contractor employees was not retained.

By not appropriately conducting user acceptance testing, the risk exists that end users
will not be able to validate the system functionality based on the users’ needs or ensure
established functional requirements have been met. Additionally, by failing to
thoroughly document the users responsible for testing specific test cases, there is a
potential risk that the appropriate SMEs did not review the results of testing or ensure
that adequate testing was performed. As a result, errors may occur in the NCFMS


                                                        New Core Financial Management System
                                            16                    Report No. 22-10-014-13-001
                                     Prepared by KPMG LLP, an Independent Public Accounting Firm
                                       for the U. S. Department of Labor – Office of Inspector General

software that limits the system’s ability to process financial data properly and meet
DOL’s financial reporting requirements.

Implementation Risk 3 – Evidence could not be obtained to determine if all
business process requirements under user acceptance testing were appropriately
tested.

DOL SMEs defined critical business process requirements through Gap Analysis
workshops. Based upon these defined requirements, test plans were created in order
to test system functionality and ensure that the defined requirements were met. To
determine if business process requirements were appropriately tested, we mapped the
specified requirements to the test plans and test cases from the cumulative user
acceptance test results provided by the OCFO. Specifically, gaps were noted in the
testing of requirements in the following business process areas:

                                                       Requirements
                                                        Not Tested
  Business Process              Requirements            Due to Test           Requirements
          Area                     Tested              Case Failure            Not Tested*              Total
 Acquire-to-Dispose                  27                      0                      4                    31
 Bill-to-Collect                     13                      0                      6                    19
 Budget Execution                    54                      0                      2                    56
 Build-to-Cost                       18                      0                      1                    19
 General Ledger                      53                      0                     37                    90
 Management
 Procure-to-Pay                        102                      7                     30                 139
 Record-to-Report                      266                      0                     5                  271
 Reimbursable                           16                      1                      4                  21
 Management
 Request-to-Procure                     14                      0                     74                  88
 System User                            13                      0                      3                  16
 Administration
 Working Capital                        20                      1                      2                  23
 Funds
 TOTAL                                 596                      9                    168*                773

*Note 1: The table above shows 168 requirements not tested. This number was derived from 147 requirements that
were classified as “other” test cases in the user acceptance test results and were not tested, and 21 requirements
that were not tested by test cases.

Additionally, we noted that during the user acceptance testing, each test case was
classified as either passing, failing, or other. According to the documentation provided,
the test cases were classified as “other” if:

•   the required functionality was not yet implemented,
•   the test case was no longer valid to the implementation, or

                                                                     New Core Financial Management System
                                                        17                     Report No. 22-10-014-13-001
                              Prepared by KPMG LLP, an Independent Public Accounting Firm
                                for the U. S. Department of Labor – Office of Inspector General

•   the test case was a duplicate of another test case in a different testing section.

As a result, the portion of the test cases that were categorized as “other” during user
acceptance testing were not tested, and therefore, gaps in testing of requirements exist.
However, the OCFO informed us that test cases not tested or not covered by other test
cases were low risk areas, considered similar to other requirements, or out of scope.
We could not conclude as to the validity of the OCFO’s statement during our audit
fieldwork.

IEEE Std 830-1998, IEEE Recommended Practice for Software Requirements and
Specifications (SRS), states that an SRS is complete if, and only if, it includes the
following elements: a) All significant requirements, whether relating to functionality,
performance, design constraints, attributes, or external interfaces. In particular, any
external requirements imposed by a system specification should be acknowledged and
treated. b) Definition of the responses of the software to all realizable classes of input
data in all realizable classes of situations. Note that it is important to specify the
responses to both valid and invalid input values. c) Full labels and references to all
figures, tables, and diagrams in the SRS and definition of all terms and units of
measure.

IEEE Std 830-1998, IEEE Recommended Practice for SRS, also states that an SRS is
traceable if the origin of each of its requirements is clear and if it facilitates the
referencing of each requirement in future development or enhancement documentation.
The following two types of traceability are recommended: a) Backward traceability (i.e.,
to previous stages of development). This depends upon each requirement explicitly
referencing its source in earlier documents. b) Forward traceability (i.e., to all
documents spawned by the SRS). This depends upon each requirement in the SRS
having a unique name or reference number. The forward traceability of the SRS is
especially important when the software product enters the operation and maintenance
phase. As code and design documents are modified, it is essential to be able to
ascertain the complete set of requirements that may be affected by those modifications.

Business process requirements were documented in various design, interface, and gap
analysis documents. As a result, requirements over business processes could appear
in multiple locations and were difficult to map to all the test cases tested during user
acceptance testing. DOL management confirmed that they also identified several
requirement gaps and presented their analysis to the NCFMS contractor. However, the
NCFMS contractor provided additional information over the test cases that were
considered invalid or not within scope of the testing to further explain why certain gaps
existed in the testing of requirements. Specifically, during the Gap Analysis phase, all
requirements had test cases developed for them to ensure that the requirements were
fully tested once the user acceptance test phase was initiated. However, as the system
development progressed, certain test cases could not be tested because of the lag in
timing of the software development of certain system functionality.



                                                         New Core Financial Management System
                                             18                    Report No. 22-10-014-13-001
                             Prepared by KPMG LLP, an Independent Public Accounting Firm
                               for the U. S. Department of Labor – Office of Inspector General

Additionally, when some test cases were written, they were written to test compliance
requirements for the interfaced applications independent of NCFMS. These interfaced
applications were developed separately by a subcontractor and the test cases
developed were considered to be out of the scope of user acceptance testing by the
OCFO and NCFMS contractor. Furthermore, the OCFO indicated that some of the
requirements that could not be mapped to test cases may be accounted for in the
testing of other functionality. However, evidence was not provided to substantiate this
information for all of the requirements that were identified as not being tested.

User acceptance testing is necessary to verify whether the system meets the business
needs and user expectations so that the system implemented is functioning as intended
after the system implementation date. As a result, errors may occur in the software
that limits the system’s ability to process financial data properly and meet DOL’s
financial reporting requirements.

Implementation Risk 4 – Reconciliation of standard financial reporting has not yet
been performed.

Reports including the Statement of Transactions (SF-224), Report on Budget Execution
and Budgetary Resources (SF-133), and Federal Agencies’ Centralized Trial-Balance
System II (FACTS II) are required to be sent to the U.S. Department of the Treasury
(Treasury) on either a monthly or quarterly basis. The OCFO tested reports in NCFMS
for out-of-the-box functionality; however, no reconciliation of the data between NCFMS
and DOLAR$ was conducted during user acceptance testing. The OCFO was unable to
verify that the information contained in the reports is a true representation of the
information contained in the financial system.

Office of Management and Budget (OMB) Circular No. A-127, Financial Management
Systems, Revised Transmittal Memorandum No. 1, dated July 23, 1993, section 6
states, “The Federal government's financial management system policy is to establish
government-wide financial systems and compatible agency systems, with standardized
information and electronic data exchange between central management agency and
individual operating agency systems, to meet the requirements of good financial
management. These systems shall provide complete, reliable, consistent, timely and
useful financial management information on Federal government operations to enable
central management agencies, individual operating agencies, divisions, bureaus, and
other subunits to carry out their fiduciary responsibilities; deter fraud, waste, and abuse
of Federal government resources; and facilitate efficient and effective delivery of
programs through relating financial consequences to program performance.”

A management decision was made not to place a high level of priority on the validation
of reports prior to the implementation of NCFMS. Instead, these reports would be
categorized in order of importance and implemented in time for the second quarter of
FY 2010. Additionally, NCFMS has not yet been updated with all the required
information to populate the reports for validity purposes due to the fact that the data
migration has not been fully completed.

                                                        New Core Financial Management System
                                            19                    Report No. 22-10-014-13-001
                             Prepared by KPMG LLP, an Independent Public Accounting Firm
                               for the U. S. Department of Labor – Office of Inspector General


The accuracy of such reports is imperative due to the analysis and representation that
the information presents to Treasury so that government-wide totals are meaningful.
The OCFO’s inability to reconcile the data between NCFMS and DOLAR$ before the
system implementation date increases the risk that a large number of reports waiting to
be developed may not be implemented into NCFMS by the time the financial reports are
due to Treasury and may have increased the risk that proper information is not included
and reconciled to DOLAR$.

Objective 2 – Was the OCFO’s batch interface testing designed and executed in
accordance with Federal, DOL, and system implementation industry standards?

The OCFO’s batch interface testing was not designed and executed in accordance with
Federal, DOL and system implementation standards. Details which support our
determination are provided below.

The purpose of batch interface testing is to evaluate and verify the exchange of data,
transmission and control, and processing times. Since data entry into DOLAR$ is either
done manually through the user interface or through batch processes, it is imperative
that user interface testing is appropriately performed. By not, or without properly
completing interface testing, the risk exists that the interfaces will not function as
intended once NCFMS is implemented.

The batch interfaces that were in-scope for our assessment were Central Contact
Registration (CCR), JFAS, CitiBank (PCard), Payment Management System (PMS),
Cost Analysis Manager (CAM), GSA Rent, Pitney Bowes, and Unemployment Trust
Fund (UTF). These interfaces were tested during the user acceptance test phase. The
user acceptance test phase was designed to test the functionality and interconnectivity
of the system interfaces. As part of the interconnectivity tests, we performed test steps
to validate the completeness and accuracy of data being transferred between the
interfaces and NCFMS.

Management developed requirements for each of the interfaces listed above to ensure
that the interface would operate as intended once NCFMS is implemented.
Management also created test plans to test each of the requirements, and conducted
testing to determine if the requirements were being met. If management identified
issues during testing, management was to remediate the issues and retest the
requirement prior to implementing NCFMS into production.

Implementation Risk 5 – A completeness and accuracy validation was not
performed between the batch interfaces and NCFMS.

The user acceptance test phase was designed to test the functionality and
interconnectivity of the batch interfaces. As part of the interconnectivity tests,
management informed us that they were going to perform test steps to validate the
completeness and accuracy of data being transferred between the interfaces and

                                                        New Core Financial Management System
                                            20                    Report No. 22-10-014-13-001
                             Prepared by KPMG LLP, an Independent Public Accounting Firm
                               for the U. S. Department of Labor – Office of Inspector General

NCFMS. We requested documentation demonstrating the results of the
interconnectivity tests for each of the batch interfaces. Based on inspection of the test
results, we determined that the interconnectivity tests were not appropriately designed,
and as a result, tests for completeness and accuracy of data being transferred were not
performed.

We inquired of the OCFO to determine if completeness and accuracy checks had been
performed elsewhere. The OCFO informed us that while completeness and accuracy
checks were not specifically conducted, the successful completion of the user
acceptance tests and the interconnectivity tests demonstrate that data is able to be
transferred accurately between the interfaces and NCFMS. However, management
was unable to provide us with the evidence to substantiate this assertion during testing.
As a result, we were unable to determine if completeness and accuracy testing took
place.

The NCFMS User Acceptance Test Plan, Version 1.1, states that integration testing is
used to “test integration software between NCFMS and external systems to validate that
all integration points are functioning as expected.”

According to the National Institute of Standards and Technology (NIST) Special
Publication (SP) 800-53, Recommended Security Controls for Federal Information
Systems, an information system should check information for accuracy, completeness,
validity, and authenticity.

OCFO management indicated that they did not perform a specific completeness and
accuracy validation because they felt that sufficient checks were being performed
through user acceptance testing and interconnectivity testing.

Without testing the completeness and accuracy of data being transferred between the
batch interfaces and NCFMS, errors may occur that limit the system’s ability to process
financial data properly and meet DOL’s financial reporting requirements.

Objective 3 – Was the OCFO’s integration testing designed and executed in
accordance with Federal, DOL, and system implementation industry standards?

The OCFO’s real-time interface testing was not designed and executed in accordance
with Federal, DOL and system implementation standards. Details which support our
determination are provided below.

Integration testing includes the real-time interfaces that connect with the NCFMS. The
purpose of real-time interface testing is to evaluate and verify the exchange of data,
transmission and control, and processing times. Since data entry into DOLAR$ is either
done manually through the user interface or through batch processes, it is imperative
that system real-time interface testing is appropriately performed. By not properly
completing real-time interface testing, the risk exists that the real-time interface(s) will
not function as intended once NCFMS is implemented.

                                                        New Core Financial Management System
                                            21                    Report No. 22-10-014-13-001
                                     Prepared by KPMG LLP, an Independent Public Accounting Firm
                                       for the U. S. Department of Labor – Office of Inspector General


The real-time interfaces that were included in the scope of our audit were the E-
Procurement System (EPS) and E-Grants. Management tested both of these real-time
interfaces as part of the user acceptance test phase. The user acceptance test phase
was designed to test the functionality and interconnectivity of the in-scope systems. As
part of the interconnectivity tests, test steps were performed to validate the
completeness and accuracy of data being transferred between the interfaces and
NCFMS.

Management developed requirements for each of these real-time interfaces to ensure
that the interface would operate as intended once NCFMS is implemented.
Management created test plans to test each of the requirements, and conducted testing
to determine if the requirements were being met. If issues were identified during
testing, management was to remediate, and retest the requirement prior to
implementing NCFMS into production.

Implementation Risk 6 – Not all real-time interface requirements were
appropriately tested during the user acceptance test phase.

The real-time interface requirements that management tested during the user
acceptance test phase were derived from several requirements documents. These
documents (gap analysis3 and interface design) were the basis for the real-time
interface user acceptance test plans. Management should account for all requirements
identified in the requirements documents in the user acceptance test plans and then test
during the user acceptance test phase.

We performed a comparison to determine if these requirements were accounted for in
the test plans, and then tested during the user acceptance test phase. We noted that
one EPS requirement was missing user acceptance test results:

         Requirement #                                              Requirement Description
NCFMS-REQ-FUNC-RTP- CONTRACT-                              The EPS Contracting Module shall display
APPROVE–32-v1.0                                            all the errors received from the NCFMS
                                                           interface to the end user

Due to time constraints, the OCFO indicated that they were unable to perform a review
to ensure that all requirements were appropriately tested during the user acceptance
testing phase. While the OCFO represented that this specific requirement did pass user
acceptance testing, they were unable to provide verifiable evidence demonstrating that
it was tested during the user acceptance test phase.




3
 Per inquiry with DOL, the gap analysis documents should include all requirements referenced in the interface
requirement documents.

                                                                      New Core Financial Management System
                                                        22                      Report No. 22-10-014-13-001
                              Prepared by KPMG LLP, an Independent Public Accounting Firm
                                for the U. S. Department of Labor – Office of Inspector General

We noted that the Request-to-Procure test plan, which includes EPS
requirements, stated that the test plan provides coverage for the requirements
enumerated in the corresponding gap analysis document.

Additionally, the NCFMS User Acceptance Test Plan stated that “the objectives of user
acceptance testing are to validate the delivered system matches the formally defined
requirements and verify the system meets the requirements identified and defined for
the new financial system” and “the system will be considered “Accepted” once all
requirements that are necessary for [implementation] have been accepted.”

IEEE Std 830-1998, IEEE Recommended Practice for SRS, states that an SRS is
complete if, and only if, it includes the following elements: a) All significant
requirements, whether relating to functionality, performance, design constraints,
attributes, or external interfaces. In particular, any external requirements imposed by a
system specification should be acknowledged and treated. b) Definition of the
responses of the software to all realizable classes of input data in all realizable classes
of situations. Note that it is important to specify the responses to both valid and invalid
input values. c) Full labels and references to all figures, tables, and diagrams in the
SRS and definition of all terms and units of measure.

IEEE Std 830-1998, IEEE Recommended Practice for SRS, also states that an SRS is
traceable if the origin of each of its requirements is clear and if it facilitates the
referencing of each requirement in future development or enhancement documentation.
The following two types of traceability are recommended: a) Backward traceability (i.e.,
to previous stages of development). This depends upon each requirement explicitly
referencing its source in earlier documents. b) Forward traceability (i.e., to all
documents spawned by the SRS). This depends upon each requirement in the SRS
having a unique name or reference number. The forward traceability of the SRS is
especially important when the software product enters the operation and maintenance
phase. As code and design documents are modified, it is essential to be able to
ascertain the complete set of requirements that may be affected by those modifications.

Failure to appropriately test all of the identified requirements increases the risk that the
corresponding interface will not operate as intended in the production environment.
Specifically, not testing the requirement identified above increases the risk that a
software defect that may cause errors in NCFMS will not be detected. This could
preclude the identification of issues that affect the functionality of the interfaces and/or
NCFMS. As a result, errors may occur in the system that limit its ability to process
financial data properly and meet DOL’s financial reporting requirements.

Implementation Risk 7 – Evidence could not be obtained to determine if failed
integration test cases were corrected and re-tested.

Real time interfaces were tested as part of the user acceptance test phase. During the
first round of user acceptance testing in August, we noted that of the 415 integration test
cases executed there were 17 issues identified. We requested documentation

                                                         New Core Financial Management System
                                             23                    Report No. 22-10-014-13-001
                              Prepared by KPMG LLP, an Independent Public Accounting Firm
                                for the U. S. Department of Labor – Office of Inspector General

demonstrating that these 17 issues had been remediated and retested; however,
management was unable to provide us this documentation. The OCFO indicated that
since overall user acceptance testing passed for real-time interfaces, it can be inferred
that these 17 issues were remediated. However, we noted that management did not
adequately document the evidence that failed integration test cases were corrected and
re-tested to support their statement.

The NCFMS User Acceptance Test Plan, Version 1.1, states that “the objectives of
[user acceptance testing] UAT are to validate the delivered system matches the formally
defined requirements and verify the system meets the requirements identified and
defined for the new financial system” and “the system will be considered “Accepted”
once all requirements that are necessary for [implementation] have been accepted.”

By failing to ensure that all test cases achieve their desired objective, DOL increases
the risk that the real-time interface(s) will not meet business needs and/or user
expectations. Specifically, EPS or E-Grants may contain software defects that are not
corrected before NCFMS is deployed into production. Additionally, if NCFMS is
deployed with issues that are not resolved, and the documentation of how NCFMS
evolved throughout the testing phases is not retained, management will not be able to
determine how NCFMS was configured at a certain point in time. This could preclude
the identification of issues that affect the functionality of the interfaces and/or NCFMS.
As a result, errors may occur in the system that limit its ability to process financial data
properly and meet DOL’s financial reporting requirements.

Implementation Risk 8 – A completeness and accuracy validation was not
performed between the real-time interfaces and NCFMS.

The user acceptance test phase was designed to test the functionality and
interconnectivity of the real-time interfaces. As part of the interconnectivity tests, we
were informed that test steps were going to be performed to validate the completeness
and accuracy of data being transferred between the interfaces and NCFMS. We
requested documentation demonstrating the results of the interconnectivity tests for
each of the in-scope real-time interfaces. Based on inspection of the test results, we
determined that the interconnectivity tests were not appropriately designed, and as a
result, tests for completeness and accuracy of data being transferred were not
performed.

We inquired of the OCFO to determine if completeness and accuracy checks had been
performed elsewhere. The OCFO informed us that while completeness and accuracy
checks were not specifically conducted, the successful completion of the user
acceptance tests and the interconnectivity tests demonstrates that data is able to be
transferred accurately between the interfaces and NCFMS. However, we noted that
management was unable to provide us with the evidence to substantiate this assertion
during testing. As a result, we were unable to determine if completeness and accuracy
testing took place.


                                                         New Core Financial Management System
                                             24                    Report No. 22-10-014-13-001
                              Prepared by KPMG LLP, an Independent Public Accounting Firm
                                for the U. S. Department of Labor – Office of Inspector General

The NCFMS User Acceptance Test Plan, Version 1.1, states that integration testing is
used to, “test integration software between NCFMS and external systems to validate
that all integration points are functioning as expected.”

According to the NIST SP 800-53, Recommended Security Controls for Federal
Information Systems, an information system should check information for accuracy,
completeness, validity, and authenticity.

OCFO management did not perform a specific completeness and accuracy validation
because they felt that sufficient checks were being performed through user acceptance
testing and interconnectivity testing.

Without testing the completeness and accuracy of data being transferred between the
real-time interfaces and NCFMS, there is an increased risk that incorrect data will be
input into NCFMS. As a result both data in NCFMS and, in some cases, data in
applications that interface with NCFMS, may be incomplete or inaccurate. As a result,
errors may occur in the system that limit its ability to process financial data properly and
meet DOL’s financial reporting requirements.

Objective 4 – Was the OCFO’s mock data conversion testing designed and
executed in accordance with Federal, DOL, and system implementation industry
standards?

The OCFO’s mock data conversion testing was not designed and executed in
accordance with Federal, DOL and system implementation standards. Details which
support our determination are provided below.

The OCFO had developed data conversion processes to migrate data from the legacy
systems (including DOLAR$) to NCFMS and to verify the completeness and accuracy of
data transfer.

To identify problems with the data conversion processes and with the data itself, the
OCFO planned a series of five mock data conversion exercises prior to the system
implementation date. The OCFO planned to use the results from subsequent mock
data conversion exercises to verify that errors identified in earlier mock data
conversions had been corrected. As of December 17, 2009, the OCFO has performed
four of the five planned mock data conversions. The OCFO planned tests to verify that
data was migrated completely and accurately from source data to NCFMS for each
mock data conversion.

Implementation Risk 9 – Evidence to determine if a source system data extract
was validated for completeness could not be obtained.

We determined that prior to the mock data conversions, source data to be migrated is
extracted from DOLAR$ and other source systems. For the Mock IV conversion, the
OCFO validated the completeness of the DOLAR$ general ledger extract by comparing

                                                         New Core Financial Management System
                                             25                    Report No. 22-10-014-13-001
                               Prepared by KPMG LLP, an Independent Public Accounting Firm
                                 for the U. S. Department of Labor – Office of Inspector General

the extract to a DOLAR$ trial balance report. However, the OCFO did not provide
documentation to evidence that a validation over the completeness and accuracy of the
DOLAR$ Documents File extract was performed. The DOLAR$ documents file contains
sub-ledger data for obligations and grants.

The NCFMS Grants Management Migration Design, version 1.2, section 4.1.1.1 states,
“The DOLAR$ document file extract will be validated by DOL personnel prior to using in
the grant data migration.”

The NCFMS Request-To-Procure (Open Obligation) Migration Design, version 1.2,
section 4.1.1.1 states, “The DOLAR$ document file extract will be validated by DOL
personnel prior to using in the Request-to-Procure data migration.”

Management indicated that due to resource constraints and competing priorities for
DOL’s staff and contractors who are supporting the migration of data from DOLAR$ to
NCFMS, DOL’s staff and contractors were not able to provide evidence that the
DOLAR$ documents file extract was validated for completeness and accuracy prior to
the Mock IV data conversion.

Without documented evidence that all source system data extracts are validated for
completeness, the risk exists that DOL’s mock data conversion processes and the cut-
over data migration prior to implementation may not migrate all relevant DOL data into
NCFMS.

Implementation Risk 10 – Required throughput rates have not yet been reached.

To effect the transfer of data from DOLAR$ and other legacy systems to NCFMS, the
OCFO planned a data conversion process that included automated process steps to
load legacy system data extracts to staging tables, apply mapping logic to transform
legacy data into NCFMS-compatible data, and process the transformed data into
NCFMS. The OCFO uses the term “throughput” to refer to the percentage of source
system records (i.e., from DOLAR$) that are successfully processed from initial
extraction to output as NCFMS-compatible records to records in the NCFMS. Source
system records that fail at any point in the data conversion process and consequently
are not successfully processed into NCFMS are not considered throughput.
The NCFMS Data Migration Data Verification Plan, dated December 7, 2008, provides
the throughput percentages that are required in order for data conversion to be
considered successful. We noted that the Mock IV data conversion, the most recently
completed mock data conversion exercise, which occurred on October 9, 2009, to
November 6, 2009, yielded the following throughput values:

Business Process                                                                Mock IV Throughput
       Area                         Required Throughput Level                      Percentage
Request-to-Procure   99.5% to meet expectations, 99.7% to exceed expectations         97.97%
Suppliers            99.5% to meet expectations, 99.7% to exceed expectations         95.63%
Procure-to-Pay       99.5% to meet expectations, 99.7% to exceed expectations         96.20%


                                                           New Core Financial Management System
                                               26                    Report No. 22-10-014-13-001
                               Prepared by KPMG LLP, an Independent Public Accounting Firm
                                 for the U. S. Department of Labor – Office of Inspector General

Business Process                                                                Mock IV Throughput
         Area                       Required Throughput Level                      Percentage
Bill-to-Collect      99.5% to meet expectations, 99.7% to exceed expectations        100.00%
Customers            100% to meet expectations                                       100.00%
Grants               99.5% to meet expectations, 99.7% to exceed expectations         99.88%
Acquire-to-Dispose   99.5% to meet expectations, 99.7% to exceed expectations         98.02%
Build-to-Cost        99.5% to meet expectations, 99.7% to exceed expectations        100.00%
Employees            99.5% to meet expectations, 99.7% to exceed expectations         73.28%
General Ledger       100% to meet expectations                                         100%

While we noted that action items were documented in the Mock IV control reports to
resolve errors, we could not obtain evidence to determine if errors identified in the Mock
IV data conversion were resolved. We noted that Mock V started on November 10,
2009, and was planned until December 18, 2009. However, final results of the exercise
were not available as of the date we completed fieldwork; therefore, we could not
determine if prior errors identified in Mock IV were addressed.

Additionally, control reports from the Mock IV data conversion exercise identified 66
data migration errors or issues, which were manifested in 21,958 individual errors.
Management informed us that errors are being communicated to those responsible for
resolving them through a variety of methods, including mock data conversion results
debrief meetings, daily issue update meetings, submission of change control tickets,
and other outlets. Although DOL has several methods of managing the resolution of
data conversion errors, other than the results from subsequent mock data conversions,
there is no centralized tracking of error resolution. As a result, we were unable to obtain
evidence that all data migration errors identified by the Mock IV data conversion were
being tracked through resolution.

By not tracking all data migration errors identified during the Mock IV data conversion
through resolution, DOL management is relying on the results of the Mock V conversion
for definitive information on the status of errors identified by Mock IV. Additionally, since
Mock V results are not scheduled to be reviewed by management until December 24,
2009, there are a limited number of days prior to the planned go-live date in January
2010 for the OCFO to correct any remaining errors as may be necessary to achieve the
required throughput levels.

Implementation Risk 11 – Mock IV data conversion test results do not include
evidence that all planned tests to verify the accuracy of data migration were
performed.

The OCFO’s Mock IV data conversion documented test results included explicitly
documented test results for 58 of 107 planned data verification tests. Although results
for tests of completeness (i.e., to verify aggregate record counts and dollar amounts)
were documented for all business processes, test results were not consistently
documented for the planned tests of accuracy. Planned tests for which documented
results were not available included tests to verify the accuracy of non-dollar amount
fields containing data elements such as Common Government-wide Accounting

                                                           New Core Financial Management System
                                               27                    Report No. 22-10-014-13-001
                               Prepared by KPMG LLP, an Independent Public Accounting Firm
                                 for the U. S. Department of Labor – Office of Inspector General

Classification (CGAC) lines, dates, names, descriptions, types, category codes, and
bank account numbers. Also, for some accuracy tests, the test results were
documented only to the extent that the relevant fields from DOLAR$ and NCFMS were
both included in the same worksheet, without any explicit indication that the DOLAR$
and NCFMS fields had been compared. The OCFO’s contractor informed us that in
some such instances the accuracy testing of the relevant fields had consisted of an
undocumented, haphazard review of field values. The table below shows by business
process the number of planned accuracy verification tests for which the OCFO’s
contractor documented results.

                      Number of                    Results Consist
                       Planned        Tests with     of Limited       Planned     Percentage of
  Business Process    Verification   Documented     Evidence of      Tests with       Tests
        Area             Tests         Results     Cursory Review    No Results   Documented
Request-to-Procure       22              15              0               7           68.18%
Suppliers                 4              3               1               0           75.00%
Procure-to-Pay           16               9              2               5           56.25%
Bill-to-Collect           7               4               1               2          57.14%
Customers                 7              2               2               3           28.57%
Grants                   18              14              0               4           77.78%
Acquire-to-Dispose        9              4               0               5           44.44%
Build-to-Cost            11               2              3               6           18.18%
Employees                 5               2              1               2           40.00%
General Ledger            8              3               0               5           37.50%
TOTAL                    107             58              10              39          54.21%

Additionally, the plans for data verification did not always clearly identify how data
verification should be achieved by the OCFO.

NCFMS DOL Data Migration Strategy Document (Legacy Data Plan) Revised, section
2.6 states, “The migration approach contains the following themes … measure and
verify accuracy and throughput of the migration using the control reports and verification
metrics.”

IEEE/EIA Guide Industry Implementation of International Standard ISO/IEC 12207:
1995 (ISO/IEC 12207) Standard for Information Technology, Software life cycle
processes, Implementation considerations section 5.5.5.2 states, “A migration plan
shall be developed, documented, and executed. The planning activities shall
include users. Items included in the plan shall include the following:

          a)   Requirements analysis and definition of migration,
          b)   Development of migration tools,
          c)   Conversion of software product and data,
          d)   Migration execution,
          e)   Migration verification, and
          f)   Support for the old environment in the future.”

                                                          New Core Financial Management System
                                              28                    Report No. 22-10-014-13-001
                            Prepared by KPMG LLP, an Independent Public Accounting Firm
                              for the U. S. Department of Labor – Office of Inspector General


The OCFO has not documented the performance and results of each planned data
verification step. OCFO management represented to us that in some cases they
executed verification tests that involved non-dollar amount fields by performing a
cursory review and comparison of migrated data to source data.

Failing to document the results for all planned data accuracy verification tests may
lessen management’s ability to exercise oversight of the performance of data
verification tests, and as a result, the OCFO’s mock conversion tests may not be
performed consistent with management’s intent, which may lead to verification testing
that fails to detect instances where records were not accurately converted from source
systems to NCFMS. This, in turn, may lead to inaccurate data conversion results during
the live data migration that the OCFO will perform during the cut-over period.

Updates to Alert Memorandums

Additionally, we monitored the actions taken by DOL to address the two Alert
Memorandums issued by the Office of Inspector General (OIG) based on the previous
pre-implementation review effort.

Update to Alert Memorandum #1 – Training has not been appropriately completed
by all pertinent DOLAR$ users.

On August 21, 2009, the OIG issued an Alert Memorandum, OIG Report Number 22-09-
014-13-001, noting that 23 percent of the DOLAR$ users had not completed any
required training for NCFMS. Additionally, the Alert Memorandum noted that none of
the Procurement-Electronic Purchasing System (EPS), Grants-Electronic Grants, and
Purchase Cards users had completed any of the required training. The OIG
recommended that the Department ensure that all applicable DOL users be assigned
appropriate roles and responsibilities, and receive adequate training prior to the
implementation of NCFMS.

While the OCFO agreed with the recommendation and provided DOL users with
additional training during September 2009, we were informed by various future NCFMS
users that the training offered had not met their needs, and that they have requested
additional training. As a result, we noted that the OCFO continued to increase the
availability of training throughout the remaining months leading up to the
implementation. The OCFO involved SMEs and invited representatives from each
agency and business process area to the trainings. Additionally, we confirmed through
corroborative inquiry that the training environment was moved from the NCFMS
contractor’s offices in Reston, Va., to the DOL Headquarters in Washington, D.C. to
facilitate attendance at the training classes.

Update to Alert Memorandum #2 – Cutover reconciliation procedures were not
appropriately documented.


                                                       New Core Financial Management System
                                           29                    Report No. 22-10-014-13-001
                              Prepared by KPMG LLP, an Independent Public Accounting Firm
                                for the U. S. Department of Labor – Office of Inspector General

On September 3, 2009, the OIG issued an Alert Memorandum, OIG Report Number 22-
09-015-13-001, noting that the procedures to perform a reconciliation of all transactions
recorded during the cutover period had not been finalized and were in draft as of
August 31, 2009. The OIG recommended the following to the OCFO:

•   Finalize the policies and procedures related to the process that will occur during the
    cutover period, including the use of workbooks to record transaction data;
•   Make a priority to finalize the procedures to perform the reconciliation of all
    transactions recorded in workbooks with those recorded in NCFMS, and
•   Incorporate the cutover period workbook process into the formal NCFMS training.

In response to the Alert Memorandum, the OCFO finalized the Cut-Over Plan. We
inspected the plan and determined that the plan outlines the use of the workbooks that
will be used to record transactions throughout the cutover period. We noted that the
OCFO updated the cutover procedures. Per the policy, a NCFMS Cut-Over
Transactions Workbook (NCTW) will be used to manually track funds status (funding
and spending) in FY 2010 during the migration period of NCFMS. The NCFMS queue
will be used to hold all transactions processed from e-Travel (E2), EPS, and E-Grants
during the cut-over period. Each day, the transactions in the queue will be provided to
DOL budget offices and OCFO’s Office of Fiscal Integrity (OFI) (sorted by agency) to
manage their availability of funds from January 1 – 13, 2010. The OCFO will be
providing a daily file from the NCFMS queue to DOL that will list all transactions
processed and approved in E2, EPS, and E-Grants during cut-over. The data in the file
can be summarized and recorded in the NCTW for commitments, contract obligations,
and travel authorizations.

The policy also included that numerous reconciliations will occur during the cut-over
period. The following is a list of reconciliations to be performed by the responsible
organization:

•   OFI will reconcile the NCTW and files provided by the OCFO to the availability of
    funds to ensure that funds are not exceeded at the allotment and apportionment
    level.
•   Agencies will reconcile funds available to transactions processed in the NCTW and
    files provided by the OCFO.
•   Departmental Budget Center (DBC) will, for small agencies, reconcile funds
    available to the NCTW and files provided by the OCFO (that include all transactions
    processed during the cut-over period).
•   Office of Financial Systems (OFS) will reconcile all transactions recorded in the
    NCFMS queue to transactions processed in NCFMS after migration. This will
    ensure all transactions in the queue are recorded in NCFMS.

The policy states that supporting documentation will be made available for all
reconciliations listed above.

                                                         New Core Financial Management System
                                             30                    Report No. 22-10-014-13-001
                            Prepared by KPMG LLP, an Independent Public Accounting Firm
                              for the U. S. Department of Labor – Office of Inspector General


RECOMMENDATION

We recommend that the OCFO take into consideration these risks when making its
decision to implement the NCFMS.

MANAGEMENT RESPONSE

The OCFO response stated that they followed the report’s recommendation and
considered in detail the 11 risks and discussed the results in detail during the OCFO
Change Control Board meeting in consideration of the NCFMS readiness to go forward.
The OCFO also stated that they believed that the short audit time frame contributed to
the challenges in providing historical and verifiable documentation and also led to some
misunderstandings associated with the documentation. The entire OCFO written
response to this draft report is included in Appendix C.

AUDITOR RESPONSE

We reviewed Management’s Response and updated sections of our report as
appropriate, specifically the Mock IV Throughput Table in Implementation Risk #10.
However, we believe that historical and verifiable documentation supporting user
acceptance, batch interface, integration, and mock migration testing should have been
available for the OCFO to be able to properly oversee the third party contractor
responsible for the implementation and to accept the associated deliverables as
needed. In addition, we analyzed management’s response to the draft report and found
nothing in their response that changed our conclusions regarding the implementation
risks identified. Please refer to Appendix D for our analysis of Management’s
Response.




                                                       New Core Financial Management System
                                           31                    Report No. 22-10-014-13-001
   Prepared by KPMG LLP, an Independent Public Accounting Firm
     for the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                              New Core Financial Management System
                  32                    Report No. 22-10-014-13-001
             Prepared by KPMG LLP, an Independent Public Accounting Firm
               for the U. S. Department of Labor – Office of Inspector General



Appendices




Appendices




                                        New Core Financial Management System
                            33                    Report No. 22-10-014-13-001
   Prepared by KPMG LLP, an Independent Public Accounting Firm
     for the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                              New Core Financial Management System
                  34                    Report No. 22-10-014-13-001
                            Prepared by KPMG LLP, an Independent Public Accounting Firm
                              for the U. S. Department of Labor – Office of Inspector General

                                                                               Appendix A
Background

The United States (U.S.) Department of Labor (DOL or Department) is comprised of 30
agencies and more than 17,000 employees located within the District of Columbia and
in six regions throughout the U.S. The Department’s responsibilities include, but are not
limited to, establishing and monitoring standards related to occupational safety, wages
and hours; unemployment insurance benefits; and re-employment services.

DOL’s financial management functions, processes, and activities are currently
distributed across multiple information systems and financial applications, and are all
centered on the Department of Labor Accounting and Related Systems (DOLAR$)
mainframe accounting system. DOLAR$ has been in service since 1989 and has been
both enhanced and extended to meet departmental and external requirements. While
DOLAR$ has been able to meet the Department’s needs, its technology is outdated and
is no longer able to efficiently and effectively meet the DOL’s financial management
requirements.

To effectively support the organization, DOL plans to migrate from DOLAR$ to a new
core financial management system (NCFMS). In July 2008, DOL elected to contract
with an external third-party vendor as its Financial Management Line of Business
(FMLoB) SSP. As such, a third party contractor provided DOL with a preconfigured
environment using a Financial Systems Integration Office (FSIO) certified Commercial
Off-the-Shelf (COTS) financial management system, Oracle Federal Financials.
Additionally, the OCFO’s support contractor plans to perform various configurations of
the modules and sub-modules to meet the requirements of the DOL business
processes. These configurations will follow the OMB financial system guidelines.

Through the implementation of the NCFMS, DOL plans to provide standardized
products, systems, and services to DOL as well as remain aligned with the FMLoB and
FSIO guidelines. DOL expects costs to be reduced by customizing the preconfigured
SSP system, services, and infrastructure and by automating previously manual
processes. In addition, DOL plans to maintain an auditable financial system through the
systematic implementation of internal controls.

After contracting with a support contractor in July 2008, DOL planned a 15-month
implementation period that would conclude at the 2009 fiscal year end. The NCFMS
implementation was segmented into the following five phases: Conceptual Planning,
Planning and Requirements, Design, Development and Testing, and Implementation.

Originally, DOLAR$ was planned to process its last transaction on September 28, 2009,
and NCFMS was scheduled to be fully operational by October 14, 2009. However, on
September 23, 2009, the OCFO postponed the planned deployment of the new system
until January 14, 2010.



                                                       New Core Financial Management System
                                           35                    Report No. 22-10-014-13-001
   Prepared by KPMG LLP, an Independent Public Accounting Firm
     for the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                              New Core Financial Management System
                  36                    Report No. 22-10-014-13-001
                             Prepared by KPMG LLP, an Independent Public Accounting Firm
                               for the U. S. Department of Labor – Office of Inspector General

                                                                                Appendix B
Objectives, Scope, Methodology, and Criteria

OBJECTIVES

We conducted a performance audit of the United States (U.S.) Department of Labor
(DOL) Office of the Chief Financial Officer’s (OCFO) and contractor’s procedures,
oversight, and controls during the New Core Financial Management System (NCFMS)
implementation. We designed and executed our audit procedures to address the
following audit objectives:

  1) Was the OCFO’s user acceptance testing designed and executed in accordance
     with Federal, DOL, and system implementation industry standards?
  2) Was the OCFO’s batch interface testing designed and executed in accordance
     with Federal, DOL, and system implementation industry standards?
  3) Was the OCFO’s integration testing designed and executed in accordance with
     Federal, DOL, and system implementation industry standards?
  4) Was the OCFO’s mock data conversion testing designed and executed in
     accordance with Federal, DOL, and system implementation industry standards?

In addition, we performed follow-up activities on the following previous findings related
to NCFMS pre-implementation activities and communicated by the OIG as Alert
Memorandums:

   1) Training has not been appropriately completed by all pertinent Department of
      Labor Accounting and Related Systems (DOLAR$) users.
   2) Cutover reconciliation procedures were not appropriately documented.

SCOPE

We performed procedures to determine if there were any gaps in the planned
implementation of NCFMS that pose a risk to the integrity, confidentiality, and
availability of financial data. We conducted our test work at DOL Headquarters in
Washington, D.C., and the OCFO’s support contractor’s offices in Reston, Va., during
the period of November 19, 2009, through December 17, 2009.

METHODOLOGY

We conducted our testing by interviewing DOL and contractor management and staff,
and inspecting relevant documentation. More specifically, for the four audit objectives,
we used the following methodologies:




                                                        New Core Financial Management System
                                            37                    Report No. 22-10-014-13-001
                        Prepared by KPMG LLP, an Independent Public Accounting Firm
                          for the U. S. Department of Labor – Office of Inspector General

Objective 1 – User Acceptance Testing

We inquired of the OCFO and contractor members of the NCFMS Team, and
inspected DOL requirements documents, test cases, and test results in order to
assess whether user acceptance testing was appropriately completed by DOL
users.

To assess if the user acceptance environment was the same environment that
would be put into production and modified based upon the results of user
acceptance testing, we inspected a listing of when software builds were
implemented into the NCFMS and the Shared Service Provider (SSP) Appliance.
We also obtained the detailed changes associated with each software release and
assessed the types of changes made to determine if they could be tied back to
errors identified in user acceptance testing. Additionally, we compared the dates
associated with each software build to determine if user acceptance testing was
appropriately performed.

To assess if user acceptance testing was appropriately performed, we inspected the
Gap Analysis documents to identify the business functional requirements. Based
upon the requirements identified, we inspected User Acceptance Test Plans,
associated test cases, and results to determine if the test cases and results tested
for each business case were appropriately documented for each requirement.

To assess the number of DOL users who participated in user acceptance testing,
we inspected the user acceptance test results to assess the extent of which DOL
users participated. Additionally, we obtained documentation evidencing the
OCFO’s re-performance of user acceptance testing and reviewed listings provided
by the OCFO indicating which DOL users participated in portions of user
acceptance testing.

Objective 2 – Interface Testing

We inquired of the OCFO and contractor members of the NCFMS Team, and
inspected DOL interface design and requirements documents, test cases, and test
results to assess whether batch interface testing was appropriately performed.

To assess DOL controls relative to the testing of data interfaces between NCFMS
and other systems, we inspected requirements documentation to determine whether
it included a list of interfaces, and for each interface, included a functional
description, integration requirements and process flows. We inspected the interface
design documentation for each interface to determine whether the interface
requirements were addressed within the interface designs and inspected user
acceptance test plans and test results to determine if the requirements were
appropriately tested.



                                                   New Core Financial Management System
                                       38                    Report No. 22-10-014-13-001
                         Prepared by KPMG LLP, an Independent Public Accounting Firm
                           for the U. S. Department of Labor – Office of Inspector General

We inspected the interface test plans for the in-scope batch systems that will
interface with NCFMS and determined if the test plans covered the interface
requirements. We subsequently inspected test results to determine whether testing
was completed in accordance with the documented interface requirements and test
plans.

If issues were identified during testing, we determined whether or not the issue had
been remediated and the requirement had been retested prior to implementing
NCFMS into production.

Additionally, we inspected interconnectivity test results to determine if tests were
performed around the completeness and accuracy of data transferred between the
batch interfaces and NCFMS.

Objective 3 – Integration Testing

We inquired of the OCFO and contractor members of the NCFMS Team, and
inspected DOL integration design and requirements documents, test cases, and test
results to assess whether integration testing was appropriately performed.

To assess DOL controls relative to the testing of data interfaces between NCFMS
and other systems, we inspected requirements documentation to determine whether
it included a list of real-time interfaces, and for each interface, included a functional
description, integration requirements and process flows. We inspected the interface
design documentation for each real-time interface to determine whether the
interface requirements were fully addressed within the interface designs and
inspected user acceptance test plans and test results to determine if the
requirements were appropriately tested.

We inspected the interface test plans for the real-time systems that will interface
with NCFMS and determined if the test plans covered the interface integration
requirements. We subsequently inspected test results to determine whether testing
had been completed in accordance with the documented real-time interface
requirements and test plans.

If issues were identified during testing, we determined whether or not the issue had
been remediated and the requirement had been retested prior to implementing
NCFMS into production.

Additionally, we inspected interconnectivity test results to determine if tests were
performed around the completeness and accuracy of data transferred between the
real-time interfaces and NCFMS.




                                                    New Core Financial Management System
                                         39                   Report No. 22-10-014-13-001
                            Prepared by KPMG LLP, an Independent Public Accounting Firm
                              for the U. S. Department of Labor – Office of Inspector General

    Objective 4 – Mock Data Conversion

    We inquired of the OCFO and contractor members of the NCFMS Team, and
    inspected DOL mock data conversion design and verification documents, data
    conversion control reports, data validation techniques, source data extract
    procedures, and error tracking methods.

    To assess the mock data conversion process, we reviewed data validation
    documents and noted the fields to be converted and verified through the mock
    conversion iterations. We compared the validation fields to the control reports for
    each business process area to determine if there were any gaps. For gaps that
    were identified, we inquired of OCFO management to determine if there were
    explanations for gaps.

    We noted errors identified on the control reports and inquired of OCFO
    management to determine if errors were being tracked through resolution.

    Additionally, we spoke to, and reviewed the work of, individuals responsible for
    providing and validating data extracts used as the source data for the conversion to
    determine if controls helped ensure that source data was complete and accurate.

The performance audit was conducted in accordance with Government Auditing
Standards, issued by the Comptroller General of the United States. The system
implementation process areas we included in the scope of this performance audit were
identified by the DOL, Office of Inspector General using a risk-based approach, which
took into account those areas with the highest level of risk associated with the
implementation, as well as those that could potentially have an impact on future DOL
financial statements.

CRITERIA

Guidance for our pre-implementation performance audit included, but was not limited to,
the following:
      •   DOL System Development Life Cycle Management (SDLCM), Version 2.2
      •   Office of Management and Budget (OMB) Circular No. A-127: Financial
          Management Systems
      •   National Institute of Standards and Technology (NIST) Special Publication
          (SP) 800-53, Recommended Security Controls for Federal Information
          Systems
      •   Institute of Electrical and Electronics Engineers (IEEE) Standard (Std) 1012-
          1998, Software Verification and Validation




                                                       New Core Financial Management System
                                           40                    Report No. 22-10-014-13-001
                     Prepared by KPMG LLP, an Independent Public Accounting Firm
                       for the U. S. Department of Labor – Office of Inspector General

•   IEEE Std 1008-1987, Software Unit Testing
•   IEEE Std 830-1998, IEEE Recommended Practice for Software Requirements
    and Specifications
•   IEEE Std 12207:1995, Standard for Information Technology, Software Life
    Cycle Process




                                                New Core Financial Management System
                                    41                    Report No. 22-10-014-13-001
   Prepared by KPMG LLP, an Independent Public Accounting Firm
     for the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                              New Core Financial Management System
                  42                    Report No. 22-10-014-13-001
                      Prepared by KPMG LLP, an Independent Public Accounting Firm
                        for the U. S. Department of Labor – Office of Inspector General

                                                                         Appendix C
Management Response




                                                 New Core Financial Management System
                                     43                    Report No. 22-10-014-13-001
Prepared by KPMG LLP, an Independent Public Accounting Firm
  for the U. S. Department of Labor – Office of Inspector General




                           New Core Financial Management System
               44                    Report No. 22-10-014-13-001
Prepared by KPMG LLP, an Independent Public Accounting Firm
  for the U. S. Department of Labor – Office of Inspector General




                           New Core Financial Management System
               45                    Report No. 22-10-014-13-001
Prepared by KPMG LLP, an Independent Public Accounting Firm
  for the U. S. Department of Labor – Office of Inspector General




                           New Core Financial Management System
               46                    Report No. 22-10-014-13-001
Prepared by KPMG LLP, an Independent Public Accounting Firm
  for the U. S. Department of Labor – Office of Inspector General




                           New Core Financial Management System
               47                    Report No. 22-10-014-13-001
Prepared by KPMG LLP, an Independent Public Accounting Firm
  for the U. S. Department of Labor – Office of Inspector General




                           New Core Financial Management System
               48                    Report No. 22-10-014-13-001
Prepared by KPMG LLP, an Independent Public Accounting Firm
  for the U. S. Department of Labor – Office of Inspector General




                           New Core Financial Management System
               49                    Report No. 22-10-014-13-001
   Prepared by KPMG LLP, an Independent Public Accounting Firm
     for the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                              New Core Financial Management System
                  50                    Report No. 22-10-014-13-001
                           Prepared by KPMG LLP, an Independent Public Accounting Firm
                             for the U. S. Department of Labor – Office of Inspector General

                                                                             Appendix D
Auditor Response

            Implementation          OCFO Response
               Risk as of                  dated
 Objective   December 17,             December 24,
   Area           2009                      2009                 Auditor Response
User       Comprehensive          Risk 1 – Disagree.      Implementation Risk 1 -
Acceptance user acceptance        UAT encompassed         Based upon the
Testing    testing was not        1749 test cases (see    documentation reviewed, we
           conducted on the       Table 1), and met all   could not determine whether
           NCFMS version          of the valid Go-Live    UAT testing was completed in
           planned for            requirements for        an environment with a
           implementation.        NCFM; of the 1749       consistent configuration
           (Risk 1)               test conducted, 1742    baseline for both NCFMS and
                                  passed and 7 failed.    its associated interfaces. The
                                  As confirmed in the     1,749 test cases referred to
                                  IV&V report, 7 were     the OCFO were completed by
                                  identified as non-      the end of October. However,
                                  critical and will be    we noted three software
                                  resolved post go-       releases have been
                                  live. Additional        implemented in the user
                                  testing for P-Card      acceptance test environment.
                                  functionality is        These changes occurred after
                                  presently underway.     UAT completion and no
                                                          evidence was provided by the
                                                          OCFO to support the position
                                                          that UAT, which supports the
                                                          full functionality of the system,
                                                          was conducted on the
                                                          NCFMS instance that plans to
                                                          go-live.

                                                        Subsequent to the issuance
                                                        of our draft report, the IV&V
                                                        team issued its final report;
                                                        however, it did not include
                                                        any discussion or results
                                                        associated with UAT testing.
            DOL users were        Risk 2 – Disagree.    Implementation Risk 2 – DOL
            not involved in all   Approximately 129     could not provide evidence to
            phases of user        DOL users             support that 129 DOL users
            acceptance            participated in UAT   were involved in all phases of
            testing. (Risk 2)     testing including     UAT testing covering the
                                  specific support from period of August through
                                  the PMO and from      October. We were informed

                                                      New Core Financial Management System
                                          51                    Report No. 22-10-014-13-001
                             Prepared by KPMG LLP, an Independent Public Accounting Firm
                               for the U. S. Department of Labor – Office of Inspector General

              Implementation          OCFO Response
                Risk as of                  dated
 Objective     December 17,            December 24,
   Area            2009                      2009                 Auditor Response
                                    the IV&V team; this     by OCFO that DOL users did
                                    represents more         not perform all the UAT test
                                    than 30% of the         scenarios and that their
                                    current total number    support contractor conducted
                                    of DOLAR$ users.        UAT on those test cases not
                                                            tested by DOL users.
                                    More than 1,900         Furthermore, the final IV&V
                                    attended training;      report did not include any
                                    most of them            discussion or results on UAT,
                                    received training in    indicating that the OCFO was
                                    hands-on                placing inappropriate reliance
                                    workshops; there        on the IV&V team for the
                                    are more than 1,100     success of UAT testing.
                                    anticipated NCFMS
                                    users.                Training is not a substitute for
                                                          user acceptance testing being
                                                          performed by users. While it
                                                          is beneficial for a user to
                                                          become familiar with system
                                                          functionality and menus,
                                                          specific user acceptance test
                                                          cases were not developed
                                                          and tested by the users to
                                                          formally test functionality of
                                                          the system during the training
                                                          sessions.
User          Evidence could        Risk 3 – Disagree. In Implementation Risk 3 – The
Acceptance    not be obtained       the audit report,     focus of our review was on
Testing       to determine if all   KPMG identified 600 identifying if all business
(continued)   business process      unique and valid      process requirements were
              requirements          requirements (from    included in the planned UAT
              under user            the gap workshops)    and that the requirements
              acceptance            required for Go-Live; were actually tested. We
              testing were          of the 600            noted 168 unique
              appropriately         requirements,         requirements out of the 773
              tested. (Risk 3)      KPMG identified       total requirements that were
                                    only 6 reports as     identified in the OCFO’s gap
                                    being unavailable for analysis workshops that were
                                    testing; these        never tested during UAT. The
                                    reports were          OCFO did not provide
                                    deferred until after  evidence to support that this
                                    Go-Live; all other    set of 168 requirements had

                                                        New Core Financial Management System
                                            52                    Report No. 22-10-014-13-001
                          Prepared by KPMG LLP, an Independent Public Accounting Firm
                            for the U. S. Department of Labor – Office of Inspector General

            Implementation         OCFO Response
              Risk as of                 dated
Objective    December 17,            December 24,
  Area           2009                     2009                 Auditor Response
                                 valid requirements      at least one test case that
                                 were met by NCFMS       was tested and passed.
                                 and this result is      Therefore, we determined that
                                 confirmed by the        not all of the valid business
                                 IV&V report.            process requirements were
                                                         tested during UAT.

                                                        Furthermore, the final IV&V
                                                        report did not include any
                                                        discussion or results on UAT,
                                                        indicating that the OCFO was
                                                        placing inappropriate reliance
                                                        on the IV&V team for the
                                                        success of UAT testing.
            Reconciliation of    Risk 4 – Agree.        Implementation Risk 4 – No
            standard financial   Standard financial     further comments.
            reporting has not    reports are out of the Management agreed with the
            yet been             box functionality      risk as stated in the report.
            performed. (Risk     offered by Oracle
            4)                   Federal Financial as
                                 a FSIO-certified
                                 COTS financial
                                 management
                                 software application
                                 (and thus tested by
                                 Oracle pending
                                 certification from
                                 GSA).
                                 The DOL Trial
                                 Balance Report was
                                 verified and
                                 reconciled by DOL.
                                 Reconciling the
                                 remaining financial
                                 reports containing
                                 DOL production data
                                 is planned for after
                                 Go-Live.
                                 It should be noted
                                 that all of the other
                                 financial reports use
                                 the trial balance data

                                                     New Core Financial Management System
                                         53                    Report No. 22-10-014-13-001
                          Prepared by KPMG LLP, an Independent Public Accounting Firm
                            for the U. S. Department of Labor – Office of Inspector General

             Implementation       OCFO Response
               Risk as of                dated
 Objective    December 17,          December 24,
   Area           2009                    2009                 Auditor Response
                                sets as their
                                foundation.
Batch        A completeness     Risk 5 - Disagree.       Implementation Risk 5 –
Interface    and accuracy       All interfaces           While the OCFO stated that
Testing      validation was     including batch and      batch and real-time interfaces
             not performed      real-time were fully     were tested for completeness
             between the        tested for               and accuracy during UAT, this
             batch interfaces   completeness and         testing was not evidenced in
             and NCFMS          accuracy of the data     the UAT test results provided
             (Risk 5)           transfer during UAT;     to us by the OCFO for all of
                                all related test cases   the in-scope interfaces. We
                                were passed and          noted that the UAT test
                                confirmed by the         results only demonstrate that
                                IV&V report.             the functionality of the
                                This type of testing,    interfaces connecting to
                                while repeated in the    NCFMS are operating as
                                course of more           intended. However, they do
                                recent connectivity      not specifically validate that
                                testing, was never       data is able to be transferred
                                intended to be           completely and accurately
                                repeated during the      between the interfaces and
                                connectivity tests.      NCFMS.
                                BLS integration
                                testing of new           On December 16, 2009, we
                                Checkbook interface      inquired of the OCFO and
                                to EPS is completed.     requested documentation to
                                                         determine if completeness
                                                         and accuracy testing was
                                                         performed elsewhere. We
                                                         were informed that the
                                                         connectivity test results would
                                                         include evidence to
                                                         demonstrate that data is able
                                                         to be passed between the
                                                         interfaces and NCFMS
                                                         completely and accurately.
                                                         However, we reviewed the
                                                         connectivity test results and
                                                         determined that these tests
                                                         did not include the necessary
                                                         test steps to validate that data
                                                         being passed between the

                                                     New Core Financial Management System
                                         54                    Report No. 22-10-014-13-001
                            Prepared by KPMG LLP, an Independent Public Accounting Firm
                              for the U. S. Department of Labor – Office of Inspector General

              Implementation        OCFO Response
                Risk as of              dated
 Objective     December 17,          December 24,
   Area            2009                  2009                    Auditor Response
                                                           interfaces and NCFMS was
                                                           complete and accurate.

                                                           The BLS integration testing
                                                           was completed after our
                                                           fieldwork end date, December
                                                           17, 2009. Therefore, we
                                                           cannot comment on it.
Real-Time     Not all real-time    Risk 6 - Disagree.      Implementation Risk 6 - On
Interface     interface            Result 6 specifically December 16, 2009 we were
Testing       requirements         refers to a single test provided the OCFO evidence
              were                 case related to EPS to satisfy this requirement,
              appropriately        error messages          which included a screen print
              tested during the    showing up for the      of one error message. The
              user acceptance      user; this was          requirement was to ensure
              test phase. (Risk    passed and              that “all” error messages were
              6)                   documentation was       available to users.
                                   provided to KPMG.       Accordingly, we concluded
                                   All real-time           that this requirement was not
                                   requirements were       appropriately tested because
                                   tested and passed       certain error messages were
                                   during UAT and          not tested by the UAT.
                                   confirmed in the
                                   IV&V report;
                                   KPMG's assessment
                                   of the requirements
                                   passing is further
                                   evidenced in their
                                   report's description
                                   of the 600
                                   requirements that
                                   were tested and
                                   passed.
Real-Time     Evidence could       Risk 7 - Disagree.      Implementation Risk 7 –
Interface     not be obtained      All 17 issues related Throughout our fieldwork, we
Testing       to determine if      to integration testing requested evidence to
(continued)   failed integration   identified during       demonstrate that the 17
              test cases were      UAT were corrected integration issues identified
              corrected and re-    and passed; this is     were corrected, retested, and
              tested. (Risk 7)     confirmed in the        followed the change
                                   IV&V report.            management process. The
                                                           OCFO did not provide any

                                                       New Core Financial Management System
                                           55                    Report No. 22-10-014-13-001
                           Prepared by KPMG LLP, an Independent Public Accounting Firm
                             for the U. S. Department of Labor – Office of Inspector General

              Implementation       OCFO Response
                Risk as of             dated
 Objective     December 17,         December 24,
   Area            2009                 2009                    Auditor Response
                                                           documented evidence
                                                           regarding these 17 issues.

Real-Time     A completeness      Risk 8 - Disagree.       Implementation Risk 8 – We
Interface     and accuracy        The accuracy and         reviewed the UAT test results
Testing       validation was      completeness of          for two real-time interfaces
(continued)   not performed       data exchanged           and determined that
              between the real-   between systems          completeness and accuracy
              time interfaces     was performed as         testing was not performed.
              and NCFMS.          part of UAT in           According to the OCFO’s test
              (Risk 8)            accordance with the      plans, UAT was designed to
                                  test plans. All test     validate that the functionality
                                  results were made        of the real-time interfaces was
                                  available to the audit   operating as intended.
                                  team. KPMG               Additionally, based upon the
                                  incorrectly ascribes     documentation provided by
                                  expected outcomes        the OCFO, UAT testing did
                                  to the testing phases    not specifically validate that
                                  of UAT and               data is able to be transferred
                                  Connectivity Testing,    completely and accurately
                                  often using each         between the interfaces and
                                  term                     NCFMS.
                                  interchangeably.
                                  Accuracy and             On December 16, 2009, we
                                  completeness             inquired of the OCFO and
                                  testing of data          requested documentation to
                                  exchanged was not        determine if completeness
                                  an aim of                and accuracy testing was
                                  Connectivity testing.    performed elsewhere. We
                                                           were informed by OCFO that
                                                           the connectivity test results
                                                           included evidence to
                                                           demonstrate that data is able
                                                           to be passed between the
                                                           interfaces and NCFMS
                                                           completely and accurately.
                                                           We reviewed the connectivity
                                                           test results and determined
                                                           that these tests did not
                                                           include the necessary test
                                                           steps to validate that data
                                                           being passed between the

                                                      New Core Financial Management System
                                          56                    Report No. 22-10-014-13-001
                            Prepared by KPMG LLP, an Independent Public Accounting Firm
                              for the U. S. Department of Labor – Office of Inspector General

              Implementation        OCFO Response
                Risk as of              dated
 Objective     December 17,          December 24,
   Area            2009                  2009                    Auditor Response
                                                           interfaces and NCFMS was
                                                           complete and accurate.
Mock Data     Evidence to          Risk 9 – Disagree.      Implementation Risk 9 – On
Conversion    determine if a       Subject Matter          December 11, 2009, we
              source system        Experts from DOL        requested evidence to
              data extract was     and the third party     document steps taken to
              validated for        contractor held         identify the completeness of
              completeness         workshops for each      source system data extracts
              could not be         type of data to be      used for Mock IV data
              obtained. (Risk 9)   extracted. These        conversion. The OCFO did
                                   workshops were          not provide any documented
                                   held throughout the     evidence that a validation
                                   Data Migration          over the completeness and
                                   Conversions and         accuracy of the DOLAR$
                                   included detailed       Documents File source
                                   analysis of the         system data extract was
                                   validity and            performed.
                                   completeness of
                                   each extract. Control   The mock data conversion
                                   reports were            control reports and other
                                   produced and            documentation provided by
                                   reviewed extensively    the OCFO do not contain
                                   with data owners to     sufficient data to perform such
                                   validate the            a comparison. In order to
                                   accuracy and            validate the accuracy and
                                   completeness of         completeness of a source
                                   each extract.           system data extract, one
                                                           would typically need to
                                                           compare the extract to a
                                                           report from the source system
                                                           to determine if the extract was
                                                           accurate and complete.




Mock Data     Required             Risk 10 – Disagree.     Implementation Risk 10 –
Conversion    throughput rates     KPMG incorrectly        Based upon the response
(continued)   have not yet         calculates              received from the OCFO, we
              been reached.        throughput rates.       updated the report on our
              (Risk 10)            Throughput rates        calculations of throughput
                                   are based upon valid    attained in the Mock IV data

                                                       New Core Financial Management System
                                           57                    Report No. 22-10-014-13-001
                       Prepared by KPMG LLP, an Independent Public Accounting Firm
                         for the U. S. Department of Labor – Office of Inspector General

            Implementation     OCFO Response
              Risk as of             dated
Objective    December 17,       December 24,
  Area           2009                 2009                  Auditor Response
                             transactions and do      conversion exercise by: a)
                             not include              excluding exempted data, and
                             exempted data.           b) by correcting differences
                                                      between our initial mapping of
                                                      datasets to business
                                                      processes and the OCFO’s
                                                      mapping. After adjusting our
                                                      calculations, throughput rates
                                                      for the Mock IV data
                                                      conversion still fall short of the
                                                      throughput rates required by
                                                      the NCFMS Data Migration
                                                      Data Verification Plan for five
                                                      of the ten business process
                                                      areas. We revised the report
                                                      accordingly.

                                                      However, for three of the
                                                      business processes,
                                                      throughput percentages
                                                      calculated by the OCFO are
                                                      higher than the throughput
                                                      percentages calculated by us.
                                                      For two of those business
                                                      processes, we have identified
                                                      the cause of the discrepancy.
                                                      For Request-to-Procure and
                                                      for Procure-to-Pay, the OCFO
                                                      calculated throughput using
                                                      an arithmetic average rather
                                                      than a weighted average.
                                                      This has the effect of skewing
                                                      the OCFO’s throughput
                                                      calculations. For example, for
                                                      Request-to-Procure, the
                                                      OCFO calculated throughput
                                                      by giving equal weight to
                                                      Grants and Purchase Orders,
                                                      even though Purchase Orders
                                                      had almost five times as
                                                      many records as Grants to be
                                                      migrated (16,335 records for

                                                  New Core Financial Management System
                                      58                    Report No. 22-10-014-13-001
                             Prepared by KPMG LLP, an Independent Public Accounting Firm
                               for the U. S. Department of Labor – Office of Inspector General

              Implementation         OCFO Response
                Risk as of               dated
 Objective     December 17,           December 24,
   Area            2009                   2009                    Auditor Response
                                                             Purchase Orders versus
                                                             3,315 records for Grants).

Mock Data     Mock IV data          Risk 11 – Agree. Not     Implementation Risk 11 – No
Conversion    conversion test       all of the evidence of   further comments.
(continued)   results do not        data verification        Management agreed with the
              include evidence      performed for the        risk as stated in the report.
              that all planned      “Lowest” levels of
              tests to verify the   data verification was
              accuracy of data      available in the form
              migration were        of an artifact that
              performed. (Risk      was independent of
              11)                   the workshops held
                                    with SMEs and data
                                    owners.




                                                        New Core Financial Management System
                                            59                    Report No. 22-10-014-13-001
   Prepared by KPMG LLP, an Independent Public Accounting Firm
     for the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                              New Core Financial Management System
                  60                    Report No. 22-10-014-13-001
                         Prepared by KPMG LLP, an Independent Public Accounting Firm
                           for the U. S. Department of Labor – Office of Inspector General


                                                                            Appendix E
Acronyms and Abbreviations

C&A             Certification and Accreditation
CAM             Cost Analysis Manager
CCR             Central Contract Registration
CGAC            Common Government-wide Accounting Classification
COTS            Commercial Off the Shelf
DBC             Departmental Budget Center
DOL             Department of Labor
DOLAR$          Department of Labor Accounting and Related Systems
EPS             E-Procurement System
FACTS           Federal Agencies’ Centralized Trial-Balance System
FM              Financial Management
FMLoB           Financial Management Line of Business
FSIO            Financial Systems Integration Office
FY              Fiscal Year
GAGAS           Generally Accepted Government Auditing Standards
GAS             Government Auditing Standards
GCE             Global Computer Enterprises
IEEE            Institute of Electrical and Electronics Engineers
JFAS            Job Corps Funding Allocation System
NCFMS           New Core Financial Management System
NCTW            NCFMS Cut-Over Transactions Workbook
NFC             National Finance Center
NIST            National Institute of Standards and Technology
OCFO            Office of the Chief Financial Officer
OFI             Office of Fiscal Integrity
OFS             Office of Financial Systems
OIG             Office of Inspector General
OMB             Office of Management and Budget
PCARD           Purchase Card


                                                    New Core Financial Management System
                                        61                    Report No. 22-10-014-13-001
                 Prepared by KPMG LLP, an Independent Public Accounting Firm
                   for the U. S. Department of Labor – Office of Inspector General

PMS      Payment Management System
SDLCMM   System Development Life Cycle Management Manual
SME      Subject Matter Expert
SP       Special Publication
SPR      Software Problem Reports
SSP      Shared Service Provider
SRS      Software Requirements and Specifications
UAT      User Acceptance Testing
US       United States
USSGL    US Standard General Ledger
UTF      Unemployment Trust Fund




                                            New Core Financial Management System
                                 62                   Report No. 22-10-014-13-001
